<html>
<title> - THE HOMELAND SECURITY TECHNICAL CORRECTIONS ACT OF 2003</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



        THE HOMELAND SECURITY TECHNICAL CORRECTIONS ACT OF 2003

=======================================================================

                                HEARING

                               before the

                          SELECT COMMITTEE ON
                           HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES
                         SUBCOMMITTEE ON RULES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION
                                   ON

                               H.R. 1416

                               __________

                             MARCH 28, 2003

                               __________

                            Serial No. 108-2

                               __________

    Printed for the use of the Select Committee on Homeland Security


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
96-175                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                 SELECT COMMITTEE ON HOMELAND SECURITY



                 Christopher Cox, California, Chairman

Jennifer Dunn, Washington            Jim Turner, Texas, Ranking Member
C.W. Bill Young, Florida             Bennie G. Thompson, Mississippi
Don Young, Alaska                    Loretta Sanchez, California
F. James Sensenbrenner, Jr.,         Edward J. Markey, Massachusetts
Wisconsin                            Norman D. Dicks, Washington
W.J. (Billy) Tauzin, Louisiana       Barney Frank, Massachusetts
David Dreier, California             Jane Harman, California
Duncan Hunter, California            Benjamin L. Cardin, Maryland
Harold Rogers, Kentucky              Louise McIntosh Slaughter, New 
Sherwood Boehlert, New York          York
Lamar S. Smith, Texas                Peter A. DeFazio, Oregon
Curt Weldon, Pennsylvania            Nita M. Lowey, New York
Christopher Shays, Connecticut       Robert E. Andrews, New Jersey
Porter J. Goss, Florida              Eleanor Holmes Norton, District of 
Dave Camp, Michigan                  Columbia
Lincoln Diaz-Balart, Florida         Zoe Lofgren, California
Bob Goodlatte, Virginia              Karen McCarthy, Missouri
Ernest J. Istook, Jr., Oklahoma      Sheila Jackson-Lee, Texas
Peter T. King, New York              Bill Pascrell, Jr., New Jersey
John Linder, Georgia                 Donna M. Christensen, U.S. Virgin 
John B. Shadegg, Arizona             Islands
Mark E. Souder, Indiana              Bob Etheridge, North Carolina
Mac Thornberry, Texas                Charles Gonzalez, Texas
Jim Gibbons, Nevada                  Ken Lucas, Kentucky
Kay Granger, Texas                   James R. Langevin, Rhode Island
Pete Sessions, Texas                 Kendrick B. Meek, Florida
John E. Sweeney, New York

                      John Gannon, Chief of Staff

         Uttam Dhillon, Chief Counsel and Deputy Staff Director

                  Steven Cash, Democrat Staff Director

                    Michael S. Twinchek, Chief Clerk

                                  (ii)
?

                                CONTENTS

                              ----------                              

                           MEMBERS STATEMENTS

  The Honorable Lincoln Diaz-Balart, a Representative in Congress 
    From the State of Florida, and Chairman of the Subcommittee 
    on Rules.....................................................     4
  The Honorable Christopher Cox, a Representative in Congress 
    From the State of California, and Chairman...................     1
  The Honorable Donna M. Christensen, a Representative in 
    Congress From the U.S. Virgin Islands........................     4
  The Honorable Jennifer Dunn, a Representative in Congress From 
    the State of Washington......................................     5
  The Honorable Bob Etheridge, a Representative in Congress From 
    the State of North Carolina..................................     5
  The Honorable Barney Frank, a Representative in Congress From 
    the State of Massachusetts...................................     5
  The Honorable Jane Harman, a Representative in Congress From 
    the State of California......................................     3
  The Honorable Sheila Jackson-Lee, a Representative in Congress 
    From the State of Texas......................................     6
  The Honorable Louise McIntosh Slaughter, a Representative in 
    Congress From the State of New York..........................     4
  The Honorable Jim Turner, a Representative in Congress From the 
    State of Texas, and Ranking Member...........................     9
  Smith..........................................................     2

                                WITNESS

  Michael Dorsey, Director of Administration, Department of 
    Homeland Security............................................     7

                                 (III)

 
        THE HOMELAND SECURITY TECHNICAL CORRECTIONS ACT OF 2003

                              ----------                              


                         FRIDAY, MARCH 28, 2003

                          House of Representatives,
                     Select Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 8:30 a.m., in 
room 345, Cannon House Office Building, Hon. Christopher Cox 
(Chairman) presiding.
    Members present: Representatives Cox, Dunn, Diaz-Balart, 
Istook, Linder, Shadegg, Thornberry, Turner, Frank, Harman, 
Slaughter, Andrews, Pascrell, Christensen, Etheridge, Gonzalez, 
Lucas, Langevin, and Meek.
    Chairman Cox. This legislative hearing of the Select 
Committee on Homeland Security will come to order.
    The committee is meeting today to hear testimony on H.R. 
1416, making technical corrections to the Homeland Security 
Act. This should be a relatively brief hearing.
    Chairman Cox. Under committee rule 3, members who are now 
present can make opening statements of 5 minutes. I recognize 
myself for 5 minutes, although I intend to make a much more 
brief opening statement.
    I would like to welcome the members who are here 
punctually. We are rewarding you by beginning on time.
    Thank you, Mr. Dorsey, for being here, for agreeing to 
appear before the committee to testify.
    Our Subcommittee on Emergency Preparedness and Response 
yesterday held a joint hearing with the Energy and Commerce's 
Subcommittee on Health, but this is the first legislative 
hearing of the full Committee on Homeland Security. The bill we 
are hearing testimony on will likely be the first legislation 
passed out of this new committee.
    It was just a few months ago that the Homeland Security Act 
created the Department of Homeland Security. One of the 
principal reasons Congress created this Select Committee on 
Homeland Security was to oversee implementation of the new act 
and, of course, the creation of the new Department. H.R. 1416 
is the first important step in this process.
    Whenever a major bill is passed, there are errors and 
oversights that can negatively impact the bill and its 
administration and hamper or delay proper implementation of the 
law. This is especially the case with the Homeland Security Act 
which, due to the urgent threat against our Nation, was drafted 
under intense time pressure. H.R. 1416 is designed to correct 
the smallest and most technical and most obvious of these 
errors.
    The changes made are not controversial in any way. Mr. 
Dorsey is here with us today simply to walk us through these 
fixes. The process of fine tuning the Homeland Security Act 
will be ongoing throughout the 108th Congress. In the future we 
will be making more substantial changes to make the new 
Department as effective as possible, but that process begins 
here today.
    The Chair now recognizes Mr. Turner, the ranking Democratic 
member, for any statement he may have.
    Mr. Turner. Thank you, Mr. Chairman. It is good to be here 
this morning at this second meeting of our select committee.
    I was pleased, as you were, Mr. Chairman, with the joint 
subcommittee hearings that we had yesterday with the Energy and 
Commerce Committee. I think it is a very important and timely 
subject that was discussed, Project BioShield, and I think it 
was clear from the hearing that there are questions that need 
to be answered. We know we need to move with dispatch on that 
very important issue. So I hope we will have an opportunity as 
the committee to look at the various options that should be 
examined on the best way to produce the vaccines and the 
medicines necessary to face the very serious threat of 
bioterrorism. Yesterday's hearing was a good one and a good 
first step in that effort.
    Also, I am pleased that we have started with a piece of 
legislation that is constructed in the way I think the chairman 
pledged to us it would be. It is a purely technical corrections 
bill, and I would anticipate that we could move this bill 
forward with unanimity.
    I also want the committee to know, on our side, we have 
solicited ideas for future hearings, Mr. Chairman. Each of our 
subcommittee ranking members are talking with their members, 
and we will put together a good list of suggestions. I hope you 
and I could sit down and work through those because I know you 
feel, just as I do, that we have a heavy responsibility; and 
inasmuch as we are in perhaps the most perilous time of threat 
to our homeland security, we want to be very vigilant in moving 
forward on all of these critical issues as quickly as we 
possibly can.
    So, it is good to be here at this second meeting; and I 
look forward to continuing to work on the very important 
matters that we have before us. Thank you, Mr. Chairman.
    Chairman Cox. Thank you.
    Does any other member wish to be recognized?
    Mr. Smith. Mr. Chairman.
    Chairman Cox. The gentleman is recognized for 5 minutes.
    Mr. Smith. Thank you, Mr. Chairman.
    I just want to acknowledge, as you already have, that this 
is a very auspicious beginning for a great committee, it being 
the first hearing of the Homeland Security Select Committee. I 
appreciate not only the hearing, but the fact that you are 
chairing this particular committee.
    Mr. Chairman, two comments that aren't really an opening 
statement. One is, I know these are proposed technical changes, 
but it might be helpful in the future if we do have testimony 
and I know it might not be necessary today but if we could get 
advance copies of testimony in the future, I think that would 
be helpful to members.
    The second is and this is something we can discuss with 
your staff--I have a technical amendment I would like to see 
added to the list. It involves nothing more than inserting the 
number 7, and we can talk about that in more detail. But I 
would hope that that would be considered by the staff as we 
move forward.
    I yield back the balance of my time.
    Chairman Cox. Your cryptic description of the proposed 
amendment is intriguing. We are anxious to find out what it 
means.
    Ms. Harman?
    Ms. Harman. Thank you, Mr. Chairman.
    Chairman Cox. Gentlelady is recognized for 5 minutes.
    Ms. Harman. I would like to echo some of the comments of 
the ranking member about the urgent need to go beyond technical 
issues in this committee and focus on some of the big ones, and 
I would like to put out there just a few that occur to me.
    As we meet this morning, U.S. troops are approaching 
Baghdad, Iraq; and reinforcements are on the way. That war may 
take some time, and there may well be the possibility of 
attacks in our country as that war continues. There may well be 
the possibility of attacks in our country even without the war. 
I am one who thinks we are very vulnerable. But it seems to me 
critically urgent that we focus in this committee on many of 
the things that we can help achieve, such as accelerated 
disbursement of funds that are already at the Department of 
Homeland Security and designated for our first responders. 
There are several funding streams in place. Some of them take 
longer than others. I would like all of them to take 24 hours 
or less.
    That is obviously a flip comment, but my point is I think 
most of our first responders know precisely what they need. 
Some of them, like the city of Los Angeles, are writing their 
own checks this weekend so that they can purchase the equipment 
that they need; and I think we could help accelerate that 
funding. That would be one.
    Second, for the private sector, which has developed 
cuttingedge technology that I think is the key to making much 
of our homeland security efforts successful, we can make sure 
that they know where the front door is to the Homeland Security 
Department and they can get their technology evaluated and 
purchased if that technology turns out to be suitable.
    Third, we can do what I think Mr. Turner mentioned, which 
is expedite consideration of not just BioShield but all the 
other ways in which we can make certain that we are protected 
from a bioweapon or a chemweapon attack. We read in the 
newspaper this week that technology transfers from Russia to 
Iraq have aided tremendously that nation's ability to produce 
those weapons, and Iraq is not the only place producing those 
weapons. So it seems to me, again, that is another urgent area 
for us to address.
    My basic point, in conclusion, is that there are bigticket 
items that this committee has jurisdiction over; and we have a 
membership that is keenly interested in them; and I would echo 
the comments of the ranking member and urge you to move out 
quickly and address the issues that confront our Nation.
    Thank you, Mr. Chairman.
    Chairman Cox. Any member on this side wish to be 
recognized?
    Gentleman from Florida.
    Mr. Diaz-Balart. Thank you very much, Mr. Chairman.
    I waive my opening statement. Thank you.
    Chairman Cox. Any other member on this side?
    Ms. Slaughter is recognized for 5 minutes.
    Ms. Slaughter. Thank you. I won't take nearly that time.
    I want to echo what Ms. Harman just said. The area that I 
represent, just outside of it, is where we are hearing in 
Federal Court now the case of the Lackawanna Five, which have 
already become Lackawanna Seven, apparently, with more to come. 
It was a fairly active al Qaeda cell that worked there, and we 
really need the first responder money desperately. That is the 
one issue I think we talk about constantly up on the border 
between United States and Canada. I saw a mayor last night who 
put it most succinctly that he is not going to be able to 
finance what he needs to do for homeland security by holding 
bake sales.
    So I am very pleased to be on this committee and look 
forward to the work and hope that we can expedite some of these 
things for our citizens to give them security and some sense of 
hope that we are getting somewhere with this.
    Thank you very much.
    Chairman Cox. Thank you.
    Dr. Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman.
    Chairman Cox. The gentlelady is recognized for 5 minutes.
    Mrs. Christensen. I do have a written statement that I 
submit for the record, and I share many of the concerns also 
that Ms. Harman already voiced. But, as you can imagine, as I 
came onto the committee, one of my main concerns would have 
been that the territories be adequately covered; and I am 
satisfied that wherever the word State appears that it does 
include the territories of the United States.
    But the other concern that I had is with respect to the 
Native American areas of our country. I think that there could 
be some improvements that I think would be considered technical 
to this bill, and I would like to be able to offer some 
technical amendments that will clarify this bill with respect 
to Native American reservations at an appropriate time.

        PREPARED STATEMENT OF THE HONORABLE DONNA M. CHRISTENSEN

    Thank you Mr. Chairman for the opportunity to make this opening 
statement. I am pleased that we are finally getting the opportunity to 
meet as a committee for the first time. Our constituents and indeed the 
American public in general, are anxious for our work to begin on the 
very important work of overseeing and guiding the efforts of the 
administration to protect our homeland.
    Yesterday, we joined the Subcommittee on Health of the Energy and 
Commerce in hearing from Secretary Thompson on the Bush 
Administration's Bioshield proposal. While that meeting was a good 
start, we have much to do to craft an appropriate proposal that will 
fast track the various countermeasures that will be needed to prepare, 
protect or respond in the event of a bio-terrorism attack. As several 
of us pointed out yesterday, it is equally important that we ensure 
continuing research into the antibiotics, vaccines and other therapies 
needed to address the illnesses that plague our people every day, and 
that we repair and not further exacerbate the current deficiencies in 
our public health system.
    Mr. Chairman, as to the bill before us today, which would make 
technical amendments, my concerns as I began my service on this 
committee are to ensure that the U.S. offshore areas and Native 
American reservations were fully included in all of the programs and 
protections of the underlined Homeland Security Act of 2002. After my 
initial review of the underlined legislation, I am satisfied at 
present, that the definition of ``state'' includes the offshore areas, 
but I believe that we need to make some technical amendments with 
regard to the areas under the jurisdiction of the Native American 
tribes in our country. I would like to offer those amendments at the 
appropriate time.
    In conclusion Mr. Chairman, I want to note, that in addition to 
ensuring that the Territories and commonwealths are included in our 
Homeland Defense, I am also very concerned that we are not providing 
our first responders with the kind of support that they need to do the 
best job possible to protect us all. As was pointed out by the U.S. 
Conference of Mayors, since September ll additional homeland security 
costs impact cities across the country, large and small. Exasserbated 
by the weak economy, which continues to severely pressure the budgets 
of local governments in all our districts there needs to be ``an 
effective and cooperative partnership with Washington on homeland 
security--and that means direct financial assistance.'' I want to make 
sure that the Act is clear in this regard as well,
    I look forward to working with you Mr. Chairman and my colleagues 
in making this a reality. Thank you.

    Chairman Cox. Thank you.
    The gentlelady from Washington is recognized.
    Ms. Dunn. Thank you very much, Mr. Chairman. I will be 
brief.
    I am happy to welcome you, Mr. Dorsey. We are eager to hear 
your testimony and also to welcome Pam Turner. We are very 
pleased that you moved over to Homeland Security and look 
forward to working with you.
    Chairman Cox. Thank you.
    Mr. Etheridge.
    Mr. Etheridge. Thank you, Mr. Chairman. I won't take all 
that time. I will be very brief, and I welcome our witnesses 
this morning.
    Let me echo some of the comments that have been made, 
because I think it is important.
    I met last Saturday at the dedication of the fire 
department and EMS. One of the things they impressed on me 
greatly, and I hope we will pay an awful lot of attention to it 
not only just in New York, Los Angeles and Washington but in a 
lot of small towns where things are very vulnerable, they need 
the resources to have the things to respond with. Because if a 
catastrophic thing should happen along a major interstate or a 
crossing of an interstate, we could have serious problems in 
this country and not have the ability to respond. I trust we 
will spend some time there and get the resources as quickly as 
we possibly can, and I hope this committee will hold hearings 
and do things in that regard.
    Second, as relates to one of the issues--a lot of companies 
in this country, private companies, really do want to help; and 
we ought to provide an avenue that they can participate. I know 
that is not what this hearing is about, but I do hope we will 
make that opportunity available to them. They aren't 
profiteers. They are great Americans who want to help and make 
a difference.
    Thank you, Mr. Chairman; and I yield back.
    Chairman Cox. Thank you.
    Is there any other member who wishes to be recognized?
    Mr. Frank, the gentleman from Massachusetts.
    Mr. Frank. Thank you, Mr. Chairman. I apologize for my 
lateness.
    I am glad that we are beginning this very difficult 
process, and I agree that it is important for us to act on 
these corrections and make sure that everything is in order. I 
hope that will prepare the way for us to deal with very 
important substantive issues.
    One that I want to note that is particularly important is 
the great stress we are putting on the higher education system 
of this country by the dysfunction in the new student visa 
program. It is a new program, and it has been complicated by a 
transfer of authority. I would like to point out, we would like 
to protect our borders, but we are talking here I think about 
harm that is being inflicted on higher educational institutions 
which is wholly unnecessary from the standpoint of security.
    One of the things that foreign students do on the whole is 
to pay full tuition, and the absence of foreign students would 
have a very negative effect on the financial situation at many 
of our universities. Those of us who are concerned with the 
ability of people of more limited economic means in America to 
pay for college should understand that, to the extent that we 
dry up the pool of foreign students, we are going to put more 
financial pressure on the students from America. The foreign 
students on the whole are a significant source of economic 
help, but I think it is very important for this country to have 
that flow of ideas.
    I saw the Secretary of State's comments the other day 
saying that one of the things we will need to do is to repair 
the incorrect, excessively harsh image of America many of them 
have. Colin Powell is the ideal person to do that. But one way 
we do that is to have young people from other cultures come 
here and see our country at its best at the university level. 
So I would hope we would give immediate attention in a hearing 
fairly soon and try to get them to fix that up.
    We have a semester starting in September; and, as I said, I 
just hear why spread the stress on universities over 
bureaucratic and other snarls, some of which are inevitable. 
But I hope we give a high priority of straightening that out.
    Thank you, Mr. Chairman.
    Chairman Cox. Any other member wish to be recognized?

         PREPARED STATEMENT OF THE HONORABLE SHEILA JACKSON-LEE

    One of my priorities is to ensure that the Homeland Security 
Department has adequate funding to meet the needs of its immigration 
components. At this point, we cannot determine the funding levels 
available to immigration operations because of the lack of specificity 
in funding allocations and the fact that this is the first budget that 
combines 22 agencies within the new department. I note in particular 
that some customs operations have been combined with immigration 
operations, which also makes it difficult to determine whether 
immigration operations will have adequate funding.
    The Department separates immigration operations into two new 
organizations, the Directorate of Border and Transportation Security 
and the Bureau of Citizenship and an Immigration Services. The success 
of these organizations, however, depends in part on coordinating the 
operations of the two organizations. Such coordination receives 
inadequate attention in the new law and needs to be addressed through 
oversight and practice.
    Equal emphasis needs to be placed on improving service, as well as 
on effective and fair enforcement of our immigration laws. Direct 
Congressional appropriations must supplement user fees to ensure the 
effective, efficient, and fair provision of services.
    Officials charged with organizing our immigration functions and 
leading these divisions within the new department should understand 
immigration policy, recognize the importance of both adjudications and 
enforcement, and work to ensure the necessary coordination of the 
separated adjudications and enforcement functions. I hope that these 
officials will be accountable and will be willing to address problems 
that result from this massive reorganization.
    The new law is silent on how our immigration functions will operate 
at our ports. It is critical that those responsible for inspections at 
our entry points be fully aware of, and educated about, the policies 
and practices of the Bureau of Citizenship and Immigration Services. To 
ensure consistent and fair border adjudications, key responsibilities 
should reside with the Bureau of Citizenship and Immigration Services 
personnel present at each port.
    Local offices must be staffed by knowledgeable people capable of 
making crucial, often life and death, decisions. These offices must be 
accessible to the communities they serve and operate within a clear 
chain of command. These offices must be adequately funded because 
expertise, accountability, and accessibility alone cannot solve the 
pervasive financial crisis and resulting backlogs.
    It is essential that visas be denied to those who mean to do us 
harm, but we cannot allow the need to exclude our enemies to interfere 
with the access of people who come to our country for legitimate 
purposes. We must balance our national security and economic security 
needs in recognition that the United States is tied to the rest of the 
world economically, socially, and politically.
    It also is essential that we do not lose sight of civil rights in 
addressing our security needs. I hope that the civil rights officials 
in the department are given the authority they need to effectively 
protect civil rights and liberties. Such authority is vitally needed, 
given the scope and authority of the department.
    I am pleased that the department will have a national and local 
ombudsmen with authority to identify and report problems with 
recommendations on addressing them. This is another crucial function. 
It will assist in ensuring that the important goals of the department 
are achieved.
    Thank you.

    Chairman Cox. If not, we will proceed to the business of 
this morning's hearing.
    I want to join with the vice chairman in welcoming you 
again, Mr. Dorsey, and also welcoming Pam Turner. I want to--
introduce Pam, if you would stand to the rest of the members of 
the committee--the new Assistant Secretary for Congressional 
Affairs. We have a big committee of 50 members. You have a much 
bigger Department of 177,000 people. So our liaison with you is 
going to be very important. But I think the President and the 
Secretary are very well served, and we are very pleased that 
you are in this position, and we look forward to working with 
you in the days ahead.
    Mr. Dorsey, thank you for being here. As you can infer from 
the opening statements of members, the breadth of the 
Department's responsibilities are matched by the breadth of the 
interests of our members. We do not want to put a burden on you 
this morning--we are pleased that you are here in your role as 
Director of Administration. We don't want to put a burden on 
you this morning to respond to questions outside the scope of 
the purpose of the hearing, which is the technical amendments 
that we are making. We know you are prepared on that subject.
    If you would, please run us through these technical 
amendments, which I think we all appreciate are 
noncontroversial, so that we have an understanding of why each 
of these is necessary and what we are doing in this very brief 
piece of legislation.
    The chairman now recognizes Mr. Dorsey for your testimony.

   STATEMENT OF MICHAEL DORSEY, DIRECTOR OF ADMINISTRATION, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Dorsey. Good morning, Mr. Chairman, Congressman Turner, 
distinguished members of the committee. It is a distinct 
pleasure to be here today as the first Department of Homeland 
Security witness to appear before the Select Committee on 
Homeland Security. Thank you for this honor and the opportunity 
to answer questions from the committee on the proposed Homeland 
Security Technical Corrections Act of 2003.
    The Department has only recently received this version of 
the bill and, as I am sure you understand, has had very limited 
time to fully consider it. As a result, the administration has 
not yet taken a position on the legislation.
    There is new language in the bill. We are evaluating the 
new provisions and look forward to working with your staff on 
these items. I would be pleased to respond to your questions 
relating to technical corrections.
    Mr. Cox, you asked about walking through; and I would be 
glad to do that at this time.
    Section 1 of the bill is just the title.
    Sections 2, 3 and 4 are strictly typographical amendments.
    Section 5 clarifies the role of the Secretary of Homeland 
Security and Secretary of Defense with respect to the Coast 
Guard, and our understanding is that it does not change the 
roles of the Secretary of Defense or the Secretary of Homeland 
Security but simply clarifies those roles.
    Section 6 is simply a technical correction to a statutory 
reference.
    Section 7, the Department is evaluating the language of 
section 7; and we would like to work with your staff on 
revisions to the language. We are not prepared to do that this 
morning, but we will be very quickly.
    Section 8 simply corrects the typographical error.
    Section 9, the references in the rest of section 1204 of 
the Homeland Security Act references the Secretary of the 
Department of Transportation, but this particular section 
references simply the Secretary and then says the Secretary 
will provide a report. This technical correction would clarify 
that the Secretary reference is to the Secretary of the 
Department of Transportation.
    Section 10 is a typographical reference. There is a 
reference to section 6, and this would correct it to the 
appropriate section, section 1406.
    Section 11 adds this committee as a committee to receive 
reports from the Department; and, of course, we are glad to 
cooperate with Congress and provide the reports that you are 
requesting.
    And section 12 is simply the effective date.
    So those are the provisions as we see them, and I would be 
glad to answer any other questions that the committee may have.
    Chairman Cox. Thank you, Mr. Dorsey, for your testimony.
    As advertised, this is in fact a very straightforward and 
technical amendment to the act.
    The Chair will now recognize any member for questions on 
this. I should add that, prior to bringing this piece of 
legislation before us to the hearing today, the majority and 
the minority have worked together on this; and I think, 
speaking for myself and the ranking member, on both sides, we 
were comfortable with what is in this legislation.
    Mr. Frank.
    Mr. Frank. Thank you.
    I had a question raised by this particularly dealing with 
the jurisdictions in the immigration area, which is the area 
that I had the hardest time sorting out exactly what we are 
doing. One of the changes does relate to jurisdiction about 
immigration, and there was a question suggested by some of our 
staff as to what this does to the Bureau of Citizenship. Could 
you clarify that? Can you explain what the effect of that will 
be on the division of immigration duties?
    Mr. Dorsey. Congressman Frank, that is the area where the 
administration has not taken a position; and we are looking at 
that language and have some concerns and would like to work 
with you and the rest of the members of the committee to 
clarify that.
    Mr. Frank. That language in the bill did not come from the 
administration?
    Mr. Dorsey. I don't know.
    Chairman Cox. If the gentleman would yield, the purpose of 
the provision in the technical corrections bill is to change 
references to the Attorney General to the Secretary and 
likewise references to the Commissioner of INS to the Director. 
Because the structure in the new Department of Homeland 
Security does not perfectly mimic the structure at the 
Department of Justice and INS, there is an opportunity--the 
translation is not completely technical, and that is why.
    Mr. Frank. I appreciate that. I do have a lot of people who 
would like me to mimic the Department of Justice, but that is 
not what we are doing here. Do I understand that this then 
completes the transfer of authority over these immigration 
issues to the Homeland Security Department from the Department 
of Justice? It changes some references--presumably some 
authority from the Attorney General to the Secretary? Is that 
in pursuance of completing that transfer of authority?
    Chairman Cox. It is elsewhere in the statute that transfer 
is made. What we are trying to do is make sure that the statute 
in its four corners is internally logically consistent.
    Mr. Frank. In the absence of the gentleman from Wisconsin, 
I will make that go easier this morning, I assume.
    Chairman Cox. To be entirely clear, there are a number of 
substantive issues about what is in and what is out of the 
Department of Homeland Security that not only could be taken up 
but that will be taken up by this committee. It is our aim to 
take up none of those issues in this piece of legislation. What 
we are aiming to do now with both the Department and OMB, which 
is conducting their separate review, and our own process here 
is to purge from this legislation--
    Mr. Frank. Thank you. I apologize for bringing a 
substantive issue. I hope there will be a time we can do that.
    Chairman Cox. The ranking member is recognized.
    Mr. Turner. Mr. Dorsey, on this same section, I wanted you 
to take a look at this and be sure that this section 
accomplishes your intent. The Homeland Security Act created, as 
we all know, two entities that have authority over immigration, 
the Directorate of Border and Transportation Security, which is 
in charge of Border Patrol and other functions, and the Bureau 
of Citizenship and Immigration Services is responsible for 
naturalization and other citizenship services. When you read 
section 7, it gives the Secretary of Homeland Security the 
authority to delegate all authority exercised under the 
Immigration and Naturalization Act to the Under Secretary for 
Border and Transportation Security without mentioning the 
Director of Citizenship and Immigration Services. I was curious 
as to whether or not that was an oversight or whether that is 
intended to be that way. I would ask you to try to take a look 
at that as we discuss the other issues that have been raised.
    Mr. Dorsey. That is the issue we are looking at, 
Congressman Turner.
    Mr. Turner. Another issue I would like your comments on 
relates to the technical correction in section 2. As you are 
aware, this section was the subject of considerable debate in 
the Congress because there were many who were sensitive to the 
erosion of the Freedom of Information Act that potentially 
could occur under this section. This provision, as you recall, 
allows private companies, private industry to disclose to the 
Department certain information about critical infrastructure 
and for that information, once conveyed, to be maintained in a 
confidential form by the Department.
    In the technical corrections bill, it says, the term 
``critical information'' ``means information not customarily in 
the public domain and related to the security of critical 
infrastructure or protected systems.'' We add, ``insofar as 
such information pertains to,'' and it goes on, ``any actual, 
potential or threatened interference with or attack on or 
compromise of or incapacitation of critical infrastructure of 
protected systems,'' et cetera.
    I want to be sure that the language that we have inserted 
here in no way expands the provision and ensure that we do not 
construe the provision any more broadly than we have to. I 
think it is a very important consideration here, considering 
the history of the debate of this issue in Congress, to ensure 
that companies do not utilize this provision to keep from the 
public information that otherwise should be available to them 
under the guise of national security.
    So when I look at the language ``insofar as such 
information pertains to''--a question was raised in my mind as 
to whether language could be--``directly relates'' rather than 
the language chosen, in order to be sure that this provision is 
construed as narrowly as possible by the Department.
    Mr. Dorsey. I am not here to interpret the statute this 
morning, but my understanding is that we were simply trying to 
correct a grammatical structure of the sentence. We weren't 
trying to change the meaning of the section itself at all.
    Mr. Turner. Well, I hope that is the case and certainly 
want that to be the case.
    The other item I wanted to mention in passing is section 5. 
That amendment in section 5 implies that the Secretary of 
Homeland Security has statutory warfighting responsibilities 
with respect to his authority over the Coast Guard. It would be 
interesting I think for us to hear your thoughts on some 
examples of how the Secretary might utilize that authority I 
would also want to be assured that the Department of Defense 
concurs with the language that we have chosen in this technical 
corrections bill. Do we know if the Department of Defense has 
reviewed this section and concurs with it?
    Mr. Dorsey. The administration has not taken a position on 
this legislation at this point. It is being reviewed. I don't 
know if the Defense Department has provided comments yet, but 
it has not cleared.
    Chairman Cox. If the gentleman would yield on that point. 
The reason this is a technical amendment is that elsewhere in 
the act it is made very clear that the responsibilities of the 
Department of Defense remain the Department of Defense's 
responsibilities, and none of those is being assumed by the 
Secretary or the Department of Homeland Security.
    In the existing statute, the Coast Guard can be placed 
under the control of the Secretary of Defense, although 
heretofore the Coast Guard has been under the control of the 
Secretary of Transportation. That requires, among other things, 
a declaration of war from the Congress. In all other 
circumstances, the Coast Guard has been under the control of 
the Secretary of Transportation; and so we are creating the 
perfect analog here. In fact, it was already created in the 
statute. We are simply making it clear that there is no 
possibility under any circumstances that is ever assumed by the 
Department.
    But, likewise, there is not any question about who is in 
charge of the Coast Guard so long as they are not operating 
under preexisting statute under the control of the Secretary of 
Defense. Then they are under the control of the Secretary of 
Homeland Security. The technicality here is to ensure that 
there is no time when the Coast Guard is under the control of 
no one.
    Mr. Turner. I thank the chairman for that clarification. 
And, Mr. Dorsey, if you wouldn't mind, please make sure that 
the Department of Defense concurs with the language we have 
there.
    Mr. Dorsey. Absolutely. And the chairman is consistent with 
our interpretation of this. This language is not intended at 
all to change the roles. It is just to clarify the roles.
    Mr. Turner. Thank you, Mr. Chairman.
    Chairman Cox. Does any other member wish to be recognized?
    I want to thank you for your testimony and the members for 
their excellent questions.
    Members of the committee may have additional questions. To 
the extent that members do have additional questions, you may 
submit them in writing; and the hearing record will be open for 
10 days for these responses.
    If there is no further business before the committee, I 
will excuse our witness; and the Chair wishes to make 
announcement. Thank you again, Mr. Dorsey.
    As you know, we have a markup scheduled of this legislation 
for next week on Monday. I have been working with the ranking 
member, with our staff and with the administration to find the 
earliest opportunity for members of this committee to be 
briefed by FBI and CIA on the threat assessment that they have 
recently completed for the terrorist threat to the domestic 
United States. That is apparently going to be possible. This 
will not be the last opportunity but the first opportunity for 
members, and we want to make it as convenient as possible.
    We are trying to do it immediately after the markup that we 
have scheduled on Monday, and I am working right now to see if 
we can't provide you dinner as part of that. Of course, 
providing dinner in a secure room at the same time introduces 
some logistical challenges for us. The briefing is more 
important. So, if necessary--
    Mr. Frank. Will we have tasters, Mr. Chairman?
    Chairman Cox. Those members who request it may ask other 
members on their side of the aisle to taste for them.
    So we are going to email your offices with further 
information on this. But I think that this is an excellent 
opportunity for us to segue immediately from what has been 
purely technical to what will be purely substantive and get us 
started very quickly on the more urgent business of this 
committee.
    I want to thank--our witness. The Committee will Markup 
this bill at 3 o'clock on Monday.
    This hearing is adjourned.
    [Whereupon, at 9 a.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
